No.
IN THE SUPREME COURT OF THE UNITED STATES

OCTOBER TERM, 2020

TOMMY LEE JONES, PETITIONER
-VS-

UNITED STATES OF AMERICA

CERTIFICATE OF FILING

ARTHUR JAY WEISS, in compliance with Supreme Court Rules does
hereby Certify:

1. That he is a member of the Bar of the Supreme Court of the United
States.

2. That on the 22nd day of September 2020 a Petition for Writ of
Certiorari, Motion for Leave to Proceed in Forma Pauperis, Certificate of Service
and Certificate of Filing in the above-entitled cause, addressed to the Clerk of the
Court; Supreme Court of the United States; Washington DC 20543, with first-class
postage prepaid thereon, were deposited in the United States mail in Farmington

Hills, Michigan, as well as filed by electronic means.
/s/ Arthur Jay Weiss
ARTHUR JAY WEISS
